HHS/OIG, Audit - "Review of Medicaid Services Provided on the Day of
Admission to an Inpatient Hospital or During an Inpatient Stay in New York State," (A-02-04-01006)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Services Provided on the Day of
Admission to an Inpatient Hospital or During an Inpatient Stay in New York State," (A-02-04-01006)
May 22, 2008
Complete
Text of Report is available in PDF format (583 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
New York State did not claim Medicaid ancillary services in
accordance with Federal and State requirements from October 1, 2000, through
September 30, 2002.  Medicaid
claims for inpatient hospital care are paid at an all-inclusive rate that covers
costs of services, including ancillary services (e.g., laboratory, radiology,
surgical services), furnished to beneficiaries during hospital stays.  However,
of the 196 ancillary services in our sample, the State separately reimbursed
Medicaid providers for 138 services provided during a beneficiarys inpatient
hospital stay or on the day the beneficiary was admitted to an inpatient
hospital.  For 61 of the 138 services, the State did not recoup payment through
its postpayment review process.  As a result, we estimated that the State
improperly claimed $293,000 ($147,000 Federal share)
for ancillary services.  This overpayment occurred because the States
computerized payment system and postpayment review process did not identify
ancillary services separately billed during a beneficiarys hospital stay.
We
recommended that the State (1) refund $147,000 to the Federal Government and
(2) improve its internal controls to preclude Medicaid payments for ancillary
services during a hospital stay or on the day of admission.  The State agency disagreed with our first recommendation and
generally agreed with our second recommendation.  Nothing in the States
response caused us to alter our recommendations.